                                                            O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                  601 E AST 12 T H S TREET, R OOM 0429
                                                                           K ANSAS C ITY , MO 64106
April 16, 2012

Report Number: A-07-12-00388

Ms. Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
P.O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Postretirement Benefit Costs Claimed by Wisconsin Physicians
Service Insurance Corporation for Fiscal Years 1999 Through 2001 Were Reasonable and
Allowable. We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-07-12-00388 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure

HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
              OFFICE OF 

         INSPECTOR GENERAL 





   POSTRETIREMENT BENEFIT COSTS 

 CLAIMED BY WISCONSIN PHYSICIANS 

SERVICE INSURANCE CORPORATION FOR 

  FISCAL YEARS 1999 THROUGH 2001

 WERE REASONABLE AND ALLOWABLE





                         Daniel R. Levinson

                          Inspector General 


                             April 2012

                           A-07-12-00388 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                 EXECUTIVE SUMMARY 


BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS).

In 1999, WPS established the WPS Represented Employees’ Postretirement Medicare Plan to
provide benefits to the represented employees formerly employed by Health Care Service
Corporation. In 2001, WPS discontinued the Post Retirement Medical plan and agreed to apply
the remaining funds in the Voluntary Employee Benefit Association (VEBA) trust to existing
and future retiree insurance benefits until the funds are exhausted.

CMS reimburses a portion of its contractors’ postretirement benefit (PRB) costs. In claiming
PRB costs, contractors must follow cost reimbursement principles contained in the Federal
Acquisition Regulation and applicable Cost Accounting Standards as required by their Medicare
contracts.

OBJECTIVE

Our objective was to determine whether the PRB costs claimed by WPS for Medicare
reimbursement on an accrual basis for fiscal years (FY) 1999 through 2001 were reasonable and
allowable.

RESULTS OF REVIEW

During our review, we determined that WPS claimed $5,404,834 of PRB costs for FYs 1999
through 2001. After reviewing WPS’s methodology for claiming PRB costs for Medicare
reimbursement as well as the contributions made to the VEBA trust, we determined that the PRB
costs that WPS claimed for Medicare reimbursement for FYs 1999 through 2001 were
reasonable and allowable. This report therefore makes no recommendations.




                                              i
                                      INTRODUCTION 


BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS).

In 1999, WPS established the WPS Represented Employees’ Postretirement Medicare Plan to
provide benefits to the represented employees formerly employed by Health Care Service
Corporation. In 2001, WPS discontinued the Post Retirement Medical plan and agreed to apply
the remaining funds in the Voluntary Employee Benefit Association (VEBA) trust to existing
and future retiree insurance benefits until the funds are exhausted.

Federal Requirements

CMS reimburses a portion of the funded accruals that contractors charge for their postretirement
benefit (PRB) plans. Federal Acquisition Regulation (FAR) 31.205-6(o) requires that, to be
allowable for Medicare reimbursement, PRB accrual costs be determined in accordance with
Statement of Financial Accounting Standards (SFAS) 106 and funded in a dedicated trust fund,
such as a VEBA trust.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the PRB costs claimed by WPS for Medicare
reimbursement on an accrual basis for fiscal years (FY) 1999 through 2001 were reasonable and
allowable.

Scope

We reviewed the PRB costs claimed for Medicare reimbursement for the WPS Represented
Employees’ Post Retirement Medicare Plan for FYs 1999 through 2001. We focused on this
time period, which began with the establishment of this benefits plan and ran through its
discontinuance, because it had not been reviewed in previous Office of Inspector General audits.

Achieving our objective did not require that we review WPS’s overall internal control structure.
However, we reviewed the internal controls related to the accrued PRB costs claimed for
Medicare reimbursement to ensure that the PRB costs were allowable pursuant to the FAR.

We performed fieldwork at WPS’s office in Madison, Wisconsin.




                                                1

Methodology

We reviewed applicable Federal requirements. We also identified the amount of accrued PRB
costs claimed on WPS’s Final Administrative Cost Proposal (FACP). We determined the extent
to which WPS funded the PRB costs with contributions to the VEBA trust. In performing our
review, we used information provided by WPS’s actuarial firm. The CMS Office of the Actuary
staff used this information to develop PRB costs for WPS based on SFAS 106 methodology
applied in accordance with FAR 31.205-6(o). In turn, we verified the actuarial data and used it
to calculate the PRB costs that were allowable for Medicare reimbursement on WPS’s FACPs
for FYs 1999 through 2001.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

RESULTS OF REVIEW

During our review, we determined that WPS claimed $5,404,834 of PRB costs for FYs 1999
through 2001. After reviewing WPS’s methodology for claiming PRB costs for Medicare
reimbursement as well as the contributions made to the VEBA trust, we determined that the PRB
costs that WPS claimed for Medicare reimbursement for FYs 1999 through 2001 were
reasonable and allowable. This report therefore makes no recommendations.

                                      OTHER MATTER

WPS has elected to continue to pay retiree claims from the VEBA trust until those funds are
exhausted. In light of this decision, WPS and CMS will need to execute an advanced agreement
that documents CMS’s agreement with this decision.




                                               2

